HHS/OIG-Audit--"A Study of Graduate Medical Education Costs, (A-09-93-00096)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"A Study of Graduate Medical Education Costs," (A-09-93-00096)
July 28, 1994
Complete
Text of Report is available in PDF format (2.76 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides our analysis of hospital graduate medical education
(GME) costs during the first 5 years of Medicare's prospective payment system.
Our report, which is intended to assist health care policymakers in their review
and formulation of GME payment policy, found that historical GME costs increased
much faster than leading economic indices and the average cost per resident
varied widely among hospitals. Given the growing surplus of some physician
specialists and the financial uncertainty facing the Medicare trust funds,
the OIG sees a need and opportunity for Medicare to cut back its subsidy of
GME costs. We are recommending that the Health Care Financing Administration
(HCFA) consider proposing legislation to reduce or even eliminate Medicare's
investment in GME for surplus physician specialists if the Administration's
proposed health reform is not enacted by Congress. The HCFA agreed with the
conclusions in our report.